<html>
<title> - COMMERCIAL SPACE TRANSPORTATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                    COMMERCIAL SPACE TRANSPORTATION

=======================================================================

                                (111-78)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            December 2, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                  U.S. GOVERNMENT PRINTING OFFICE
53-802                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California

                                  (ii)

  
?

                        Subcommittee on Aviation

                 JERRY F. COSTELLO, Illinois, Chairman

RUSS CARNAHAN, Missouri              THOMAS E. PETRI, Wisconsin
PARKER GRIFFITH, Alabama             HOWARD COBLE, North Carolina
MICHAEL E. McMAHON, New York         JOHN J. DUNCAN, Jr., Tennessee
PETER A. DeFAZIO, Oregon             VERNON J. EHLERS, Michigan
ELEANOR HOLMES NORTON, District of   FRANK A. LoBIONDO, New Jersey
Columbia                             JERRY MORAN, Kansas
BOB FILNER, California               SAM GRAVES, Missouri
EDDIE BERNICE JOHNSON, Texas         JOHN BOOZMAN, Arkansas
LEONARD L. BOSWELL, Iowa             SHELLEY MOORE CAPITO, West 
TIM HOLDEN, Pennsylvania             Virginia
MICHAEL E. CAPUANO, Massachusetts    JIM GERLACH, Pennsylvania
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
MAZIE K. HIRONO, Hawaii              CONNIE MACK, Florida
HARRY E. MITCHELL, Arizona           LYNN A. WESTMORELAND, Georgia
JOHN J. HALL, New York               JEAN SCHMIDT, Ohio
STEVE COHEN, Tennessee               MARY FALLIN, Oklahoma
LAURA A. RICHARDSON, California      VERN BUCHANAN, Florida
JOHN A. BOCCIERI, Ohio, Vice Chair   BRETT GUTHRIE, Kentucky
NICK J. RAHALL, II, West Virginia
CORRINE BROWN, Florida
ELIJAH E. CUMMINGS, Maryland
JASON ALTMIRE, Pennsylvania
SOLOMON P. ORTIZ, Texas
MARK H. SCHAUER, Michigan
VACANCY
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Dillingham, Dr. Gerald, Director, Physical Infrastructure Issues, 
  U.S. Government Accountability Office..........................     4
Greason, Jeffrey, CEO, XCOR Aerospace and Vice President, 
  Commercial Spaceflight Federation..............................     4
Nield, George C., Associate Administrator, Office of Commercial 
  Space Transportation, Federal Aviation Administration..........     4
Stevens, J.P., Vice President, Space Systems, Aerospace 
  Industries Association of America, Inc.........................     4
Testwuide, James A., Chairman, The Great Lakes Aerospace Science 
  and Education Center at Spaceport Sheboygan, Wisconsin, 
  testifying on Behalf of the Wisconsin Aerospace Authority, 
  accompanied by Mark C. Hanna, Vice President, Wisconsin 
  Aerospace Authority............................................     4

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Costello, Hon. Jerry F., of Illinois.............................    21
Johnson, Hon. Eddie Bernice, of Texas............................    27
Mitchell, Hon. Harry E., of Arizona..............................    31
Oberstar, Hon. James L., of Minnesota............................    32
Richardson, Hon. Laura, of California............................    37

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Dillingham, Dr. Gerald...........................................    41
Greason, Jeffrey.................................................    61
Nield, George C..................................................    67
Stevens, J.P.....................................................    81
Testwuide, James A...............................................    86

[GRAPHIC] [TIFF OMITTED] T3802.001

[GRAPHIC] [TIFF OMITTED] T3802.002

[GRAPHIC] [TIFF OMITTED] T3802.003

[GRAPHIC] [TIFF OMITTED] T3802.004

[GRAPHIC] [TIFF OMITTED] T3802.005

[GRAPHIC] [TIFF OMITTED] T3802.006

[GRAPHIC] [TIFF OMITTED] T3802.007



               HEARING ON COMMERCIAL SPACE TRANSPORTATION

                              ----------                              


                      Wednesday, December 2, 2009

                   House of Representatives
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Jerry 
F. Costello [Chairman of the Subcommittee] presiding.
    Mr. Costello. The Subcommittee will come to order and the 
Chair will ask all Members, staff, and everyone to turn 
electronic devices off or on vibrate.
    The Subcommittee is meeting today to hear testimony 
regarding commercial space transportation. I welcome all of our 
witnesses here today.
    I will give a brief opening statement and then recognize 
the Ranking Member, Mr. Petri, for any remarks he would like to 
make or an opening statement.
    I welcome everyone here to the Subcommittee hearing on 
commercial space transportation. It has been almost five years 
since this Subcommittee's last hearing on the topic, so it is 
important that we get an update from the FAA Safety Oversight 
on how the industry is evolving to ensure that the FAA has the 
proper resources.
    I am very familiar with the emerging commercial space 
transportation industry, not only from my work on the House 
Science and Technology Committee, but also because the X Prize 
Foundation, which is well known for designing and managing 
public competitions for aviation and space, is located in St. 
Louis, Missouri, across the river from my congressional 
district.
    Though commercial space transportation tourism has not led 
to regularly scheduled manned commercial spaceflights yet, 
Virgin Galactic is ready to unveil its eight seat SpaceShipTwo 
by the end of the month. Some Members of this Subcommittee saw 
its launch vehicle, WhiteKnightTwo, debut at the Oshkosh Air 
Show this past July.
    One factor playing into the future of the commercial space 
transportation industry is the expectation that the U.S. Space 
Shuttle fleet will retire in 2010. The United States will be 
without vehicles to transport cargo and people for at least 
five years before the next U.S. launch vehicle will be 
operational. The reality is that the United States may have to 
rely on other countries to facilitate this travel unless 
commercial space transportation is able to fill the gap.
    Congress passed several laws to allow commercial space 
transportation to develop, so we must ensure that the industry 
has proper Federal safety oversight.
    Since 1989, approximately 10 percent of launches have 
failed. But in the last eight years this number has improved to 
3 percent. As the number of launches is expected to increase 
with commercial space tourism and the potential use of 
commercial space launch vehicles by NASA, the FAA must have the 
proper resources to ensure that new technologies and programs 
evolve safely.
    I look forward to hearing from the FAA Associate 
Administrator for Commercial Space Transportation about the 
FAA's role in overseeing the commercial space industry to 
ensure the safety of the public, as well as the crew and 
spaceflight participants.
    Commercial space transportation is also likely to have an 
impact on our air traffic control system, especially as the 
United States implements the next generation air transportation 
system. Today's low number of yearly launches allows the ATC to 
adjust the national airspace system to accommodate launch and 
reentry. For instance, if a commercial space transportation 
vehicle missed its reentry window, the ATC could briefly shut 
down the affected airspace. However, if the launch is increased 
in the future, civil aviation traffic may not allow the ATC the 
same flexibility and may require additional protocols 
incorporated in NextGen to keep the airspace safe.
    As we implement NextGen, it is important to consider all 
space transportation issues that might impact the airspace. In 
addition to the impact on our ATC, the environment and our 
communities will be affected by increased commercial space 
tourism. Congress must guarantee that FAA has the tools it 
needs to ensure the safety of flight for both aircraft and 
launch vehicles, as well as to protect the environment from 
these activities. Currently, there are seven licensed 
spaceports in the United States; six federally launched sites 
and eight proposed spaceports in different degrees of 
development. Environmental impact such as noise and greenhouse 
gas emissions will play a role in commercial spaceports just as 
they do at U.S. airports and communities.
    It is important for this Subcommittee to examine the issues 
associated with licensing these facilities and the role these 
facilities have in the United States.
    With that, I welcome our witnesses here today and look 
forward to hearing their testimony.
    Before I recognize the Ranking Member of the Subcommittee, 
Mr. Petri, for his remarks or opening statement, I ask 
unanimous consent to allow two weeks for all Members to revise 
and extend their remarks and to permit the submission of 
additional statements and materials by Members and witnesses. 
Without objection, so ordered.
    The Chair now recognizes Mr. Petri for his comments or his 
opening statement.
    Mr. Petri. Well, Mr. Chairman, thank you for holding this 
important hearing. I requested this hearing because, although 
it rarely dominates the headlines, man's commercial space 
transportation represents the future of cargo and passenger 
transportation in the United States and, in fact, around our 
globe.
    A little more than five years ago, Scaled Composites 
SpaceShipOne became the first private spacecraft to launch more 
than 62 miles into space and return safely twice in two weeks 
with a pilot onboard. With this flight, the commercial space 
launch industry, formally focused on delivery if payloads into 
outer space, entered the next phase of its development, manned 
commercial space transportation.
    The SpaceShipOne launches altered our vision of what the 
aviation system of the future will entail, including the 
development of space tourism, U.S. spaceports, rapid global 
transportation, and point-to-point commercial spaceflight 
services. It also raised new issues with regard to safe 
operations, impact analysis, and infrastructure development.
    In 1984, Congress passed the Commercial Space Launch Act, 
which sought to encourage the development of the emerging 
commercial space launch industry and to facilitate compliance 
with Federal safety requirements. This Act gave FAA the 
authority to license commercial launches carrying crew and 
spaceflight participants or passengers. The Office of 
Commercial Spaceflight Transportation within the FAA oversees 
the safety of the commercial space launch industry through 
licensing and permitting activities.
    Though there were only four commercial space launches in 
2009, I suspect a lot of behind the scenes activity has gone 
into the goal of making manned commercial space transportation 
both routine and safe. Given that the last hearing on 
commercial space transportation held by this Subcommittee was, 
as you pointed out, Mr. Chairman, in 2005, I am very interested 
to get an update today on this important transportation sector.
    As the industry grows and develops, other issues will 
require this Committee's attention, including, first, the 
impact of commercial space launches on the management of the 
air traffic control system; second, the role of the FAA in 
spaceport development; third, the impact of legal liability on 
investment opportunities in commercial space transportation; 
and, fourth, the best approach to ensuring the highest level of 
safety of commercial space launches.
    Some have predicted that within two to three years 
commercial space tourism could really take off here in the 
United States. If this prediction proves to be accurate, we 
will witness a major development in human transportation, and 
it is vitally important that the FAA and the Congress are 
prepared.
    I am happy to introduce Mr. Jim Testwuide and Mr. Mark 
Hanna of the Wisconsin Aerospace Authority. I appreciate that 
they are here to share the views of the spaceport community. 
The Wisconsin Aerospace Authority was established several years 
ago through legislation passed by the Wisconsin State 
legislature, signed into law by the governor to support the 
development of the space industry in our particular State. Mr. 
Testwuide will share with us the experience of the ongoing 
effort to develop spaceport Sheboygan, which is located in my 
congressional district, as well as other spaceports around the 
Country.
    Welcome, as well, to Mark Hanna of the Authority, who has 
devoted much time and effort to this project.
    I would like to thank all of our witnesses for their 
participation, and I thank you again, Mr. Chairman, for holding 
this important hearing.
    Mr. Costello. I thank the Ranking Member for his comments 
and for his opening statement.
    Now the Chair will introduce the witnesses here today to 
testify. The first witness will be Dr. George Nield, the 
Associate Administrator for the Office of Commercial Space 
Transportation with the FAA; Dr. Gerald Dillingham, Director, 
Physical Infrastructure Issues, with the U.S. Government 
Accountability Office, who has testified before this 
Subcommittee probably more times than he would like to, but he 
has been with us many times; Mr. J.P. Stevens is the Vice 
President, Space Systems, Aerospace Industries Association of 
America; Mr. Jeffrey Greason, CEO, XCOR Aerospace and Vice 
Chairman, Commercial Spaceflight Federation; and Mr. James 
Testwuide, who is the Chairman of The Great Lakes Aerospace 
Science and Education Center, and he will be testifying on 
behalf of the Wisconsin Aerospace Authority; and he is 
accompanied, but I understand will not offer testimony, but may 
be here to answer questions, if we have questions, by Mr. Mark 
Hanna, who is the Vice Chair of the Wisconsin Aerospace 
Authority.
    Gentlemen, we appreciate your appearance here today and we 
look forward to hearing your testimony. I would remind our 
witnesses that we would ask you to summarize your statement in 
five minutes or so, and we want you to know that your full 
statement will appear in the record.
    With that, the Chair now recognizes Dr. George Nield.

 TESTIMONY OF GEORGE C. NIELD, ASSOCIATE ADMINISTRATOR, OFFICE 
     OF COMMERCIAL SPACE TRANSPORTATION, FEDERAL AVIATION 
     ADMINISTRATION; GERALD DILLINGHAM, DIRECTOR, PHYSICAL 
 INFRASTRUCTURE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; 
    J.P. STEVENS, VICE PRESIDENT, SPACE SYSTEMS, AEROSPACE 
INDUSTRIES ASSOCIATION OF AMERICA, INC.; JEFFREY GREASON, CEO, 
   XCOR AEROSPACE AND VICE PRESIDENT, COMMERCIAL SPACEFLIGHT 
 FEDERATION; AND JAMES A. TESTWUIDE, CHAIRMAN, THE GREAT LAKES 
AEROSPACE SCIENCE AND EDUCATION CENTER AT SPACEPORT SHEBOYGAN, 
  WISCONSIN, TESTIFYING ON BEHALF OF THE WISCONSIN AEROSPACE 
   AUTHORITY, ACCOMPANIED BY MARK C. HANNA, VICE PRESIDENT, 
                 WISCONSIN AEROSPACE AUTHORITY

    Mr. Nield. Mr. Chairman, Ranking Member Petri, Members of 
the Subcommittee, thank you for inviting me to participate in 
this hearing to update you on the activities of the Federal 
Aviation Administration related to commercial space 
transportation. This morning I would like to briefly summarize 
the history, mission, and recent accomplishments of the FAA's 
Office of Commercial Space Transportation and to highlight some 
of the challenges we will be facing in the years ahead.
    The Office was established through an Executive Order and 
passage of the Commercial Space Launch Act back in 1984. 
Originally, it was located in the Office of the Secretary of 
Transportation. However, in November of 1995, it was 
transferred to the FAA, where today it is one of the four lines 
of business, along with aviation safety, airports, and the air 
traffic organization.
    Our most critical mission is ensuring public safety during 
commercial launch and reentry activities. We do this in a 
number of ways. First, we issue launch licenses, experimental 
permits, and safety approvals. Since the Office was 
established, there have been 200 licensed launches, with the 
most recent being an Atlas 5 from Cape Canaveral just last 
week. During all of those launches, there have not been any 
accidents resulting in fatalities, serious injuries, or 
significant property damage to the uninvolved public.
    Our Office also issues licenses for the operation of launch 
sites or spaceports. Since 1996, we have issued launch site 
operator licenses for seven spaceports, with several others 
having been proposed.
    We also develop and issue regulations that are designed to 
ensure that commercial launch and reentry activities are 
conducted safely.
    Finally, we perform safety inspections in conjunction with 
all licensed and permitted launches to see to it that 
operations are conducted in accordance with those regulations.
    Shortly after the X Prize winning flights of SpaceShipOne, 
Congress passed the Commercial Space Launch Amendments Act of 
2004, which gave the FAA additional responsibilities for 
regulating commercial human spaceflight. Consistent with that 
legislation, our implementing regulations make clear that 
individuals participating in human spaceflight will encounter 
an elevated level of risk and, therefore, must be fully 
informed of that risk and acknowledge it before climbing aboard 
the rocket.
    In the five years since adoption of the Commercial Space 
Launch Amendments Act, the commercial space industry has come a 
long way. At the same time, it is clear that the future will be 
filled with challenges. For example, NASA is currently in the 
process of retiring the Space Shuttle, with just five more 
launches on the schedule.
    After the Shuttle's retirement, commercial launches 
licensed by the FAA will be a key part of the plan for delivery 
of equipment and supplies to the International Space Station. 
In fact, we are currently working very closely with both 
Orbital Sciences Corporation and Space X, the companies that 
have been selected by NASA to perform these resupply 
activities, on their planned operations.
    A second key challenge involves the start of commercial 
human spaceflight, and specifically suborbital space tourism. 
Today, our office is working with a number of different 
companies, each of which is in the process of designing, 
building, and testing rocket-powered vehicles capable of 
carrying people to the edge of space. We know that not all of 
the companies engaged in this effort will be successful. Some 
will encounter technical difficulties; others will have 
financial challenges. But I am quite sure that it will not be 
long before we will be seeing test flights of a variety of 
reusable launch vehicle concepts.
    As Congress has pointed out, space transportation is 
inherently risky. At the FAA, safety, helping to safeguard the 
public during spaceflight operations, is at the very core of 
our mission, something that shapes our days and guides our 
work. This is an exciting time for commercial space 
transportation and we are committed to doing our part to enable 
safe and successful operations by the industry.
    Mr. Chairman, this concludes my statement. At the 
appropriate time, I would be pleased to answer any questions 
that the Subcommittee may have.
    Mr. Costello. Thank you, Dr. Nield.
    The Chair now recognizes Dr. Dillingham.
    Mr. Dillingham. Good morning, Mr. Chairman, Ranking Member 
Petri, and Members of the Subcommittee. Thank you for inviting 
me back to appear before the Subcommittee again.
    In October 2006, following the completion of a study done 
at the request of this Committee, we made several 
recommendations to FAA and proposed the matter for 
congressional consideration regarding the commercial space 
launch industry. My testimony today updates the status of those 
recommendations and looks forward to some key emerging issues.
    Regarding our recommendations, based on the forecast in 
2006 of potentially significant growth in the commercial space 
launch industry, especially the development of spaceports and 
space tourism, we made three recommendations: first, FAA should 
develop a strategic assessment to determine whether it had 
enough staff with the right skills to handle the expected 
workload; second, FAA should be proactive, rather than 
reactive, in considering how to regulate the safety of space 
tourism; and, third, we recommended that FAA and the Department 
of Commerce develop a Memorandum of Understanding that would 
clearly delineate their respective promotional roles for this 
industry. We also asked the Congress to consider whether it 
wanted to revisit the existing mandate for FAA to regulate the 
safety of the industry, as well as promote it.
    FAA has generally been responsive to our recommendations. 
FAA has added technical staff to the Office of the Commercial 
Space Transportation and developed an MOU with Commerce. FAA 
has also taken steps towards being proactive in safety 
regulations, but has been somewhat limited because of the 
relatively low level of activity in the industry. For example, 
since 2006, the annual number of FAA licensed commercial 
launches has dropped off, from a high of 22 in 1998 to a total 
of only 20 in the last three years, none of which were manned. 
New spaceport development has also been limited. Overall, we 
believe that FAA has taken reasonable steps to ensure that it 
can fulfill its current safety oversight role.
    Turning to the near future, senior FAA officials are 
predicting significant increases in the number of commercial 
launches in the relative short term and NASA plans to sponsor 
commercial launches after it retires the Space Shuttle sometime 
in 2010. As the space launch industry expands, Congress, FAA, 
and other stakeholders will need to actively address several 
issues: first, if the industry expands as predicted, a 
reassessment of FAA's need for regulatory resources and 
expertise would be appropriate; second, FAA will also need to 
ensure that its current regulations on licensing and safety 
requirements will also be suitable for spaceport operations and 
for launches from NASA facilities; third, FAA must continue to 
be proactive in developing safety indicators for the space 
tourism industry.
    Regarding our earlier request to Congress, we see no need 
for Congress to step in at this time to require separation of 
FAA's regulatory and promotional activities. However, we would 
caution that FAA and Congress must continue to guard against 
any potential conflict of interest between FAA and the space 
launch industry such as those that were recently raised about 
FAA and some elements of the airline industry.
    With regard to emerging issues, international competition 
is one such issue. High launch costs and export controls affect 
the ability of U.S. companies to sell their services and 
products abroad. Many of the industry experts we spoke with 
pointed to the continuation of Federal indemnification and a 
review of the current export licensing requirements as examples 
of the kinds of Federal involvement needed to support the 
industry's growth and competitiveness. Another emerging issue 
in the international arena will be to develop and harmonize 
safety standards and regulations, particularly those concerning 
space tourism flights. U.S. leadership in developing standards 
could boost U.S. R&D and manufacturing outputs, as well as 
support future joint ventures.
    Another key emerging issue that was identified by the 
Chairman and the Ranking Minority Member in their opening 
statements is the integration of space transportation into 
NextGen. Among the issues to be considered are accommodating 
spacecraft that are traveling to and from space through the 
National Airspace System, determining controller workload and 
crew rest requirements for space operations, and assessing 
potential environmental impacts.
    Finally, an overarching issue with implications for U.S. 
space launch industry is lack of a comprehensive space launch 
strategy. According to the National Academy of Sciences, such a 
strategy could leverage resources from various agencies to 
address such shared challenges as the diminishing space 
industrial base, the scarcity of available technical workforce, 
and reduced funding levels.
    Thank you, Mr. Chairman.
    Mr. Costello. Thank you, Dr. Dillingham.
    The Chair now recognizes Mr. Stevens.
    Mr. Stevens. Good morning, Chairman Costello, Ranking 
Member Petri, Members of the Subcommittee. I am grateful for 
the opportunity to testify before you today.
    AIA is the largest aerospace trade association in the 
United States. We represent almost 300 manufacturing companies 
that provide over 631,000 highly skilled jobs and indirectly 
support another 2 million middle-class jobs and 30,000 
suppliers from all 50 States.
    I want to start off by saying we appreciate the efforts of 
Congress to keep our commercial, civil, and national security 
space programs healthy. We take comfort that Congress 
recognizes that space has become a part of our daily lives and 
virtually every part of the U.S. economy is touched by their 
applications. We would also like to take this opportunity to 
commend the FAA's Office of Commercial Space Transportation, 
which has been open to productive discussion on commercial 
space issues. Their Commercial Space Transportation Advisory 
Committee includes a wide range of industry experts who provide 
information, advice, and recommendations to the FAA 
Administrator on a regular basis. They also host the Annual 
Commercial Space Transportation Conference, which industry has 
found to be an excellent venue for sharing information and 
expressing our concerns.
    AIA believes FAA has struck the right balance on a very 
difficult issue. On one side of the balance is the need to 
safeguard the participants of human spaceflight and the general 
public; on the other side is the need to provide flexibility so 
that this industry can grow and become viable. Keep in mind 
that with the success of SpaceShipOne in 2004, there have only 
been three manned commercial spaceflights to date. We believe 
the FAA presently has a sound framework in place and 
understands that, as this new industry evolves, the regulations 
must also evolve.
    There are also outside events that could accelerate the 
FAA's role in licensing and oversight. As you are aware, the 
Augustine Committee recently provided the Administration with a 
series of options regarding NASA's future direction. They 
include continuing with the program of record, what is called 
the Constellation Program, and operations that could have 
commercial space companies flying astronauts to the 
International Space Station. As Dr. Nield mentioned, the Space 
Shuttle is also slated to retire after five more flights and 
the FAA is preparing for commercial cargo flights to the 
Station.
    There are some other commercial space issues that concern 
us. As space launch capabilities have been developed by other 
nations, our share has decreased significantly. For example, in 
2008, only 6 of the 28 commercial launches were conducted by 
U.S. companies. Also, with every other nation with commercial 
space launch capabilities provides their companies with some 
form of government indemnification against third-party 
liability.
    Our program expires in 29 days. We believe loss of 
indemnification could drive even more launch business overseas 
and could impact the launches of U.S. civil and national 
security payloads. The current regime provides no funds and it 
requires congressional approval for any payment, so continuing 
to indemnify commercial launches incurs no additional expense 
to the U.S. taxpayers. The House recently voted to extend 
indemnification to the end of 2012, and we hope the Senate will 
do the same.
    Our space industrial base designs, builds, and supports all 
our space systems. We need to keep this base healthy and 
competitive. While AIA believes it is important to protect 
critical U.S. capabilities, many export control policies are 
counterproductive for our industry. While we must keep 
sensitive technologies out of the wrong hands, we must also 
facilitate trade with our friends and allies in a timely 
manner. Barriers to the export competitiveness of U.S. 
companies have prompted numerous countries to develop their own 
aerospace capabilities. Without a cutting-edge space industrial 
base, our Government could be forced to rely on foreign 
suppliers for key components, and I don't think we want that to 
happen.
    AIA members believe that most important long-term issues 
facing our industry is having a trained technical workforce for 
the future. Currently, we graduate just 74,000 engineers a 
year. Further, many of those students are foreign nationals who 
return home shortly after graduating, which drops the number of 
domestically employable engineers to less than 60,000 per year. 
In comparison, India and China respectively graduate 6 and 10 
times more engineering students than we do each year.
    So what can be done to draw more students into science and 
engineering? Well, I believe one is expanding human 
spaceflight. However, the industry that inspires our youth 
needs to be present and vibrant if we expect them to major in a 
stem discipline and become a part of our workforce.
    In conclusion, our commercial space industry is at a 
critical juncture; however, commercial spaceflights that will 
carry humans into space is on the horizon. However, this market 
is competitive, our share is small, and we have a lot of work 
to do to ensure that this new industry has the opportunity to 
grow and compete in a global marketplace.
    I thank the Committee for their time and attention. I look 
forward to answering any of your questions.
    Mr. Costello. The Chair thanks you, Mr. Stevens, and now 
recognizes Mr. Greason.
    Mr. Greason. Thank you. Thank you all for the opportunity 
to testify before this Committee on the state of the U.S. 
commercial space transportation industry. As noted, I am 
speaking today both as CEO of XCOR and as Vice Chairman of 
Commercial Spaceflight Federation.
    In the five years since Congress passed the Commercial 
Space Launch Amendments Act, the clear and flexible regulatory 
regime from that bipartisan act has boosted the confidence of 
investors, entrepreneurs, and customers. The United States is 
now seen as a leader in this field because of the support of 
regulatory climate. That has encouraged development of several 
suborbital reusable vehicles to address scientific research in 
education markets, as well as spaceflight participants. Also, 
there have been investments in commercial spacecraft for 
carriage of cargo and humans to and from earth orbit using 
expendable launch vehicles.
    I believe AST has done a good job implementing the statute, 
both in new regulations and through developing their skills to 
work with these new kinds of vehicles. I particularly want to 
praise the Office's placement of technical staff out in the 
field, where they can closely observe, develop, and test 
activities of industry.
    In spite of advances in engineering and modeling, no one 
can predict what the safest designs, technologies, or operating 
approaches for commercial spacecraft will be. To learn them, we 
must fly. And after a suitable flight test program, building up 
the thousands of flights needed to learn what techniques work 
the best means flying for revenue. The purpose of disclosing 
our safety record through informed consent, as called for in 
the Act, is to force companies to compete with each other to 
improve safety as quickly as possible. This regulatory regime 
grows out of the twin missions of AST to promote the industry, 
while protecting the uninvolved public, ,the only workable 
approach at this stage of development.
    At the present time, questions of safety are foremost in 
the minds of potential customers, both participants and payload 
developers. To achieve a viable industry, we must innovate in 
safety. That means achieving a superior record to what has been 
done in the past. Innovation requires change, and to achieve 
superior safety in the future, we have to try new safety 
technologies and practices. The reality is that some of those 
changes will be improvements and some will not, and without the 
freedom to try, we can't improve.
    This need to find a better, safer way to operate is what 
motivates the industry, and the best way for the FAA to promote 
the industry is to aid us in identifying best practices and 
encouraging their swift adoption. That makes it critical that 
we and the FAA collaborate and share knowledge freely. I can't 
state strongly enough that at the present time the industry 
faces irresistible economic pressure to strive for the safest 
possible operation that is economically achievable, and the 
FAA's mandate to promote the growth of the industry is 
therefore a mandate to foster continuous safety improvement.
    There is simply no conflict today between regulation and 
promotion, and there will not be the chance for conflict until 
industry has a demonstrated safety record in which multiple 
operators have shown themselves safe enough that customers stop 
shopping for safety and come to expect it as a given. We are 
certainly not at that point today and don't expect to be for 
many years.
    Space vehicles transition through the airspace for launch 
and reentry. Historically, space launches were so infrequent 
that you cleared all the air traffic away from their launch. 
That is not how suborbital reusable launch vehicles will 
operate; a spaceflight will become one of many users of the 
shared airspace in the remote regions where we fly. In Mojave, 
we have recently been demonstrating elements of that airspace 
coordination with XCOR's recent rocket-powered aircraft 
operations.
    Looking to the future for objects in orbit, space traffic 
management is a very complicated issue. Orbital space is 
inherently a global domain and the physics of the environment 
make it very different from air traffic. That is an area where 
there is a lot of policy development at the national and 
international level that is required, and what agencies of the 
U.S. Government will wind up playing what roles in the eventual 
system is far from clear.
    Any discussion of issues facing the commercial space 
industry would be incomplete without repeating the need to 
reform U.S. export control practices. I will not belabor the 
problems that others have alluded to, but experience shows 
that, regardless of the intent, the actual effect is to ensure 
that bright aerospace engineers educated here go to work 
overseas and that foreign investors invest in foreign 
competitors instead of U.S. companies.
    While commercial spaceflight, human spaceflight, and the 
vehicles that produce it are still in their early days, we can 
already see opportunities for industry to provide services 
needed by the Department of Defense and NASA. The market of 
serving these needs will stimulate further development of the 
industry, as well as strengthens the Nation's space 
capabilities.
    Four promising areas include small satellite launch, 
suborbital research payloads, transport of NASA astronauts to 
the International Space Station, and launch a propellant to 
orbit for exploration missions. The combined promise of these 
various markets strengthens my belief in a bright future for 
the commercial space transportation industry operating within a 
stable regulatory and policy framework.
    Thank you for the opportunity to be here today, and I look 
forward to your questions.
    Mr. Costello. The Chair thanks you for your testimony and 
now recognizes Mr. Testwuide.
    Mr. Testwuide. Thank you, Mr. Chairman, Ranking Member 
Petri, and Subcommittee.
    I would like to first state that the FAA AST has 
successfully executed its mission as far as we can tell. FAA 
integrates years of experience in aviation and airport 
operation into its commercial spaceflight oversight. The 
commercial space community must be self-constraining with 
expert and experiential-based mentoring from the FAA and 
others, providing guidelines for licensing and achieving safety 
and environmental goals.
    The U.S. needs to maintain its competitive edge and develop 
an economically sustainable commercial space model. Industry, 
State governments, and the FAA need to identify and mentor the 
licensing of operators. Spaceport assets need to be identified, 
and implementation plans and viability studies need to be 
completed. Spaceport and vehicle developer/operators need to 
continue the current collaborative environment among themselves 
and the FAA.
    The nurturing of spaceport assets provides efficient 
growth. Efficiencies of a multiuse facility can be utilized. 
Horizontal takeoff space planes can coexist at conventional 
airports with proper attributes. Identification of current 
assets that can be utilized by both conventional aviation and 
space activities can dramatically reduce costs of the creation 
of space infrastructure and spaceport creation. The earlier the 
potential spaceport identifies the goal of launch licensing, 
the sooner a spaceport development plan can be created and, 
with that plan, the spaceport has greater potential for savings 
through cooperative multiuse infrastructure planning.
    Case study of Spaceport Sheboygan. We have restricted 
airspace over low population density safety zone, Lake 
Michigan; currently used by the Coast Guard and the Air 
National Guard approximately 30 days a year; previously, has 
received numerous FAA waivers to launch rockets up to 35 miles, 
or 200,000 feet; home of Great Lakes Aerospace Science and 
Education Center; close proximity to an active airport allowing 
flight profile similar to other tourist profiles of other 
spaceports; exclusive tourist destination, the American Club at 
Kohler, already attracting visitors of that class; close 
proximity to Wisconsin's Experimental Aircraft Association.
    We have created the Wisconsin Aerospace Authority, whose 
mission is to promote, stimulate, and facilitate aerospace-
related educational and economic opportunities, capabilities, 
and activities within our State, including the development of 
Spaceport Sheboygan.
    And point-to-point suborbital transportation is on the 
horizon. Eventually, suborbital spaceflight will evolve to 
include point-to-point transportation opportunities. Suborbital 
velocities outside the friction of the atmosphere bring the 
entire world within a two hour flight. Spaceports that start as 
space tourism centers will eventually become regional 
suborbital hubs.
    Wisconsin is trying to do its part. Wisconsin is doing its 
part to capitalize on the opportunity presented by the 
restricted airspace to help our Nation participate in the next 
global transportation revolution. We ask that the Committee and 
Subcommittee support approaches, actions, and licensing 
processes currently used by the FAA. We at Wisconsin Aerospace 
Authority and Spaceport Sheboygan look forward to engaging in 
the next steps with the FAA.
    We also ask the Committee to consider reintroducing Federal 
funding for initial spaceport development planning. This type 
of seed capital can assure the proper design of the spaceport 
from its inception. With early recognition, the effective 
utilization of existing attributes, the spaceport can utilize 
its capital more effectively. Early and thorough planning 
reduces risks--the risk to the environment, the economic risk 
to the operator and its community--it increases the safety of 
the uninvolved public and the operators; and it increases the 
long-term economic viability and sustainability of the space 
transportation industry in the U.S. for the foreseeable future.
    Thank you very much for the opportunity to testify. I look 
forward to answering your questions.
    Mr. Costello. And the Chair thanks you.
    Dr. Nield, we will start with you. Let me ask you. As you 
know, our Subcommittee usually deals with certification of 
aircraft, and since commercial space transportation is not 
certified, but it is licensed, can you walk us through the 
process of the licensing process with the FAA?
    Mr. Nield. Certainly. The launch licensing process actually 
involves five separate reviews. We conduct a policy review to 
ensure that the intended activity is consistent with our 
national policy and foreign policy objectives; we look at the 
payload involved to ensure that there is nothing unusual or 
inappropriate concerning the purpose of the launch. Of course, 
the most important review is the safety review, where we are 
looking at possible hazards involved and how they can be 
mitigated.
    We also conduct an environmental review in compliance with 
NEPA, the National Environmental Policy Act. There is, finally, 
a financial responsibility review, which involves the analysis 
of the maximum probable loss--not the worst case, but the most 
likely bad day during a launch, and that information is used by 
us to establish the insurance requirements for the launch 
operators.
    So with those reviews complete, that allows us to make a 
determination on the issuance of a launch license. We have 180 
days, through our statute, in order to come up with that 
determination.
    Mr. Costello. Thank you.
    Mr. Greason, would you like to comment as to your 
experience in dealing with the licensing process?
    Mr. Greason. I think I would characterize it as we and the 
FAA together, both us as an operator and us in the industry, 
are still working out together exactly how to handle these new 
class of vehicles. Every new vehicle right now, of the reusable 
category, that comes to the FAA is essentially the first of its 
kind, because we don't have standardization in the industry at 
about how we are going to approach these problems.
    Given that, it is a collaborative process and it takes 
time. But I also think it is a value-added process; it is 
very--any honest engineer appreciates having someone 
knowledgeable looking over their shoulder and asking tough 
question, so it is a challenging process sometimes to get 
through, but I think it is a worthwhile one.
    Mr. Costello. Thank you.
    Dr. Dillingham, you state in your testimony that the FAA 
needs to develop safety indicators and collect data to help 
determine when to begin regulating crew and passenger safety. I 
wonder if you might elaborate on that.
    Mr. Dillingham. Thank you, Mr. Chairman. As was mentioned 
by some of the witnesses, and also as a result of the 
legislation that said FAA shouldn't start to regulate until 
after 2012, the points that we wanted to make is that due to 
the relatively low activity in the industry, FAA has not been 
able to actually do the kind of collection of safety data that 
it has done or has done in the aviation area.
    The point that we wanted to make was that FAA should 
continue to be proactive in this area, doing the things that it 
is currently doing like taking lessons learned and sharing 
information. Those are some preliminary steps that they can 
continue to take. But as soon as is feasible, when the 
experience base is there, they should in fact be collecting 
safety indicators so that they can be proactive in developing 
needed regulations, as opposed to reactive.
    Mr. Costello. Thank you.
    Mr. Stevens, you indicate in your testimony that there are 
issues that the FAA obviously needs to look at surrounding 
integrated commercial spaceflight into the air traffic control 
system. I wonder if you might elaborate on some of those 
issues.
    Mr. Stevens. Well, I think I would add to what I said in my 
testimony by saying that it is a complex issue and, as we look 
at NextGen moving forward, we need to take into account all 
those issues and, as we develop that policy, make sure they are 
incorporated into it.
    Mr. Costello. Mr. Greason or Mr. Testwuide, any specifics 
that you would like to add?
    Mr. Testwuide. I would like to amplify and extend some of 
the things that Mr. Dillingham was saying about the need for 
tracking safety indicators. I think it is a misconception of 
the state of the current Act, the Commercial Space Launch 
Amendments Act, that the FAA is currently constrained from 
regulating. Instead, they are constrained only to regulate for 
the safety of the participants where there is data, in the 
sense of a series of incidents or an accident, that shows that 
there is a problem that needs regulating.
    And I, wearing my hat as a member of the industry trade 
association, couldn't be more in favor of that. In fact, if 
anything, I completely agree we need to work together very hard 
to make sure that we have as much advanced data as possible so 
that we can spot trends and take action, whatever action might 
be, as early as we can; and that is a collaborative thing 
between us and the FAA.
    Mr. Greason. And I would just like to reiterate what Mr. 
Stevens said about education and encouraging our youth. I 
firmly believe that the space program had a very large bias in 
creating a large number of engineers 20, 30 years ago, and I 
think if we can engage the youth today in our further 
exploration of space, we can reinvigorate the education on the 
stem situation and get our Country back in a more engineering 
and scientific methodology in education.
    Mr. Costello. Dr. Nield, the senior FAA officials in the 
past have predicted that commercial airspace transportation, 
the industry, will expand not 200 to 300 annual launches. Not 
only a question for you, but a question for others on the 
panel, if you would like to answer it. How soon do you think 
that we would begin to see increases and reach the level of 200 
launches a year?
    Mr. Nield. Well, that is an excellent question. Of course, 
it is hard to predict the future, but as I look at the kinds of 
activities that we are likely to see, I anticipate three 
different kinds. We will see a continuation of the current 
expendable launches of telecommunication satellites and so 
forth that we have had for a number of years, and that will 
continue on into the indefinite future.
    We will also see, shortly, with the retirement of the Space 
Shuttle, a new kind of commercial activity designed to take 
cargo to the International Space Station. I believe that 
activity will be on the order of six to eight launches per year 
and will start in the next couple of years.
    But the prime driver for the kinds of flight rates that you 
mentioned will, in all likelihood, be a result of suborbital 
space tourism and the commercial human space flight. I believe 
that within the next five years we will see several companies 
that are conducting regular and frequent launches up to the 
edge of space, and that will, of course, greatly change how we 
think about space transportation.
    Mr. Costello. Mr. Stevens?
    Mr. Stevens. I agree with Dr. Nield on all those accounts. 
The one thing I would bring up is that I am very concerned, as 
I mentioned in my testimony, that the number of commercial 
launches done by the United States is very low, and we need to 
really take a look at ITAR reform. As I mentioned, that is 
hurting our industry. And we definitely need to pass, get the 
Senate to approve indemnification before the end of this year.
    Mr. Costello. Anyone else on the panel?
    Mr. Dillingham. Mr. Chairman?
    Mr. Costello. Yes, Dr. Dillingham.
    Mr. Dillingham. I think it is important to point out that, 
to the extent that the industry does expand, that FAA will need 
to match the resources and skill mix that will be needed to 
oversee that industry, collaboratively or otherwise. And I 
think it is important to note that, in addition to the pipeline 
not being what the pipeline should be for math and science, 
there is also the potential difficulty with FAA attracting 
those people, those kinds of skilled people to skew it to the 
agency.
    We recently issued a report that indicated that FAA had 
some work to do in order to make itself a place where those 
kinds of skills would be inclined to go to, and, to their 
credit, Administrator Babbitt has made that a focus, but this 
could take time, and FAA, right now, they are in fact able to 
match the size of the industry and its activity, but it is 
something that needs to be kept on the radar screen.
    Mr. Costello. Very good. Thank you, Dr. Dillingham.
    The Chair now recognizes the Ranking Member, Mr. Petri.
    Mr. Petri. Well, thank you all for your testimony. I, first 
of all, want to say that I am happy to hear, in Dr. Nield's and 
other members of the panel's testimony, somewhat of a measure 
of sensitivity to the relationship between a very high-tech, 
very emerging industry and what can be the deadening hand of 
government regulation. If we can protect ourselves from success 
if we are not careful. And yet, at the other hand, we do have 
some obligation to make sure that things are being done 
responsibly and risks are taken.
    I was sensitized to that myself at the EAA several years 
ago, when I was invited to have lunch with a giant in this 
field, Burt Routan, who was pleading with the FAA to classify 
SpaceShipOne as a spaceship, not as an airplane, because, if it 
had to go through certification for airplanes, it would have, 
he thought, had a very adverse effect on his long-term success. 
He has developed cutting-edge planes for the intelligence 
industry and defense industry for a generation, and very 
successfully.
    But he said the mentality of his team is to continually 
challenge the design and look for further ways to improve it; 
and if they suddenly had to switch to defending the design, 
that would have a psychologically deadening effect on 
innovation and, he thought, on safety, actually. And he has had 
a very wonderful safety record given what he has been 
attempting to do over the years. So this is an interesting 
balance and I am happy to hear that you are sensitive to that.
    Maybe one question for Mr. Testwuide. Working in a 
midwestern community on this whole cutting-edge industry, what 
is really in it at the end of the day for a local community or 
State that participates in this program? Could you discuss why 
people should be interested in and trying to participate in 
this whole effort?
    Mr. Testwuide. Thank you, Mr. Petri. Yes. I think for a 
small town like Sheboygan, Wisconsin and a State that is not 
typically thought of as a cutting-edge technology State--I 
would have exception to that, but I don't think in the general 
Nation people get much beyond bratwurst and cheese. I would say 
that there are lots of things that it brings, including, as I 
mentioned before, the awe of space travel to the midwest and to 
a local region. But the industrial impact of having regular 
spaceflights just for tourism, then possibly a midwest point-
to-point hub, have long-term financial ramifications for the 
region, and I think that would be very good economically long-
term.
    In the short-term, I think you get back to the 
psychological realization that we are on the cutting edge, that 
if you come from Wisconsin, you can go to Madison and get some 
very fancy engineering experience, if you choose to. You will 
be with, unfortunately, right now, an awful lot of foreigners, 
but I would love to see a lot more Badgers there becoming 
engineers and going to work for Mr. Greason and or the FAA and 
developing this area in the future.
    So I think there is a great opportunity and a missed 
opportunity by most of rural America, or central America, I 
should say, in the space world. We have recognized it because 
we have that asset out in Lake Michigan that is clearly a low 
population density area, a couple fishermen, and it is 
restricted and it has been used, so we intend to capitalize on 
that asset and see if we can move forward with this prospect.
    Mr. Petri. You mentioned cheese and bratwurst, and probably 
beer would be appropriate as well.
    Mr. Testwuide. I think so.
    Mr. Petri.--although it is not as much as it was. But I 
think people aren't aware our biggest employer, at least for 
many years, has been General Electric, and part of that is 
making missile guidance systems.
    Mr. Testwuide. Correct.
    Mr. Petri. We had a tremendous industrial infrastructure 
for everything from lattice, making the big castings that are 
vital for the airplane industry, to many of the key components 
that support our Navy around the world. The subcontractors are 
very intense in our region. So we have nothing to apologize for 
in terms of contributing to the space effort in our part of the 
world.
    Thank you very much.
    Mr. Costello. The Chair thanks the Ranking Member and now 
recognizes the gentlelady from Texas, Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman and Ranking 
Member, for having this hearing.
    I have been interested in this area since we had one 
citizen to go into space and came and gave his overview of what 
it meant. What I would like to ask Dr. Nield is you stated that 
the FAA identifies policies which may have an unintended 
adverse impact on commercial space transportation efforts. 
Could you go into that a little bit more?
    Mr. Nield. Certainly. As part of our statutory charge, we 
are encouraged to work with other Government agencies to do 
exactly what you have described, and I think an excellent 
example of that would be our partnership with the United States 
Air Force on the eastern launch range. We have worked together 
for a number of years to try and develop common launch safety 
standards so that whether a rocket is being launched in order 
to put a defense satellite into orbit or for a commercial 
communications satellite, the basic safety standards would be 
the same.
    So that is not an issue of being hard or easy on safety, it 
is a question of can we come together and have common standards 
so that these launch providers do not have to keep a separate 
set of books depending on who the customer is for the launch. 
So that would be one example of the kinds of things that we are 
trying to do in order to streamline and make the system more 
effective.
    Ms. Johnson. Thank you.
    Mr. Dillingham, were you intending to imply that the FAA 
would be prepared to handle this increased commercial launch 
activity after NASA retires the Space Shuttle?
    Mr. Dillingham. Thank you, Ms. Johnson. Yes, I think that 
FAA is taking the steps that will allow it to in fact handle 
the extra activities that will take place when the Space 
Shuttle is retired sometime in 2010. What I also meant to say 
is not only as NASA turns over those kinds of responsibilities, 
as the other part of the space launch industry expands, FAA 
will also need to expand its resources to be able to handle 
that.
    Ms. Johnson. Has anyone given any thought to what it would 
cost just a regular American citizen who wants to pay to go 
into space for a vacation?
    Mr. Greason. For suborbital flights, which is the area 
where commercial human spaceflight is likely to start, 
different providers are charging different prices. The high-end 
mark is at about $200,000 right now. I think the lower 
announced price is about $90,000 or $95,000. But everyone 
expects that, as with all other areas of high technology, once 
you enter into service and there is more than one company 
operating, there will be a great deal of competitive pressure 
on those prices and they will come down home, we all hope, 
fairly quickly.
    Ms. Johnson. One final question. There had been a couple of 
delegations to my office asking about space to put a launch pad 
for a commercial space visits. Is that still in action? I 
haven't heard from them for a while now. Anywhere. It doesn't 
have to be Texas, although that is the premier place to do it.
    Mr. Nield. We would be happy to work with your staff to 
arrange those types of tours. We know they are very 
inspirational to those who take part.
    Ms. Johnson. Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentlelady and would say 
that I think Illinois would be a perfect location. I think Mr. 
Petri thinks that Wisconsin would be a good location as well. 
He suggests maybe we can do a Committee trip to space.
    [Laughter.]
    Mr. Costello. The Chair now recognizes the gentleman from 
Pennsylvania, Mr. Altmire.
    Mr. Altmire. Thank you, Mr. Chairman.
    I want to start with Dr. Dillingham. The Chairman asked Dr. 
Nield a question about the 200 to 300 annual launches that were 
expected, and in your testimony, Dr. Dillingham, you state that 
if senior FAA official predictions are correct, that that is 
the number. A reassessment of FAA's resources in areas of 
expertise would at that point be appropriate. I was wondering 
if you could expand upon what you meant by that.
    Mr. Dillingham. Thank you, Mr. Altmire. I predicated that 
by saying if those numbers turn out to be, as we all have said 
this morning, this is an industry in its very beginning stages 
and it is not clear how this is all going to play out in terms 
of this is very technical, this is new, and we have had 
predictions before. You will recall when we talked about the 
very light jet industry, there were going to be thousands in 
the skies in the next few years. It hasn't turned out to be 
that way. So to the extent that we do get this expansion, then, 
again, we would say FAA needs to expand as well in order to 
carry out its mission.
    Mr. Altmire. Thank you.
    Mr. Stevens, in your testimony, you describe some important 
issues facing the future of U.S. space policy, such as funding 
U.S. reusable launch vehicles versus relying on commercial 
space transportation. I was wondering if you could expand upon 
what you meant by that.
    Mr. Stevens. Could you ask that question----
    Mr. Altmire. The difference between the two, the funding of 
U.S. reusable launch vehicles versus relying on commercial 
space transportation.
    Mr. Stevens. Well, I think the issue is, when you are 
talking about the Government program or the Constellation 
Program to supply the International Space Station and the 
competition that is going on with the commercial companies, 
what we believe is that there is no competition, that they are 
two different programs. In fact, the Constellation Program is 
designed to take us out of low earth orbit, and that is where 
we need to head. The commercial companies will pick up the 
slack and take care of all the logistical requirements of 
supplying the International Station.
    Why I think this is a great way to do business is that, if 
we get to that point where that is happening, we will have at 
least two different rocket systems, United States rocket 
systems, to supply our International Space Station, and we 
won't be in the situation we are today by paying $50 million 
per U.S. astronaut to send them up on a Russian vehicle.
    And something that I read today was also that we will be 
paying--because we have an agreement with other countries--
European and Japanese astronauts, we will be paying for them 
too. So I don't see any sort of competition among the both; 
they are two separate programs, they both overlap and they 
both, I think, will be very supportive of keeping the United 
States in the position that it needs to be in the future.
    Mr. Altmire. Thank you.
    Mr. Greason, in response to the last questioner, you talked 
about suborbital would be the place where we would start, but 
then perhaps more thereafter. Can you explain with regard to 
the duration of the flight and when you say we may go beyond 
suborbital, what are we talking about? What are we looking at?
    Mr. Greason. Suborbital flights, because we are all using 
the same physics, we are all using the same air, it can take 
some time to reach the point where you turn on the rocket 
engine; that varies by system. But once you turn on the rocket 
engine, the flight typically lasts about half an hour from that 
point, most of that being coming back home through the 
atmosphere.
    There certainly are roadmaps out there and technological 
plans out there--my own company is among them--for how these 
systems will evolve over timed orbital systems, where you can 
talk about days or weeks or longer. The likely progress is that 
suborbital human service will begin--that you will begin a 
small volume of commercial human spaceflight with capsules on 
expendable rockets, where commercial and Government customers 
might both be users of the same system; and that it will take 
some time beyond that for fully reusable orbital systems to 
come along which will take us to a whole new level.
    Mr. Altmire. Thank you.
    Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the gentleman from Ohio, Mr. Boccieri.
    Mr. Boccieri. Thank you, Mr. Chairman.
    Dr. Nield states in his testimony that the Air Force and 
the FAA and NTSB have a Memorandum of Understanding regarding 
commercial space accidents and incidents. I notice also that 
Mr. Stevens states that, as space launch capabilities have been 
developed by other nations, U.S. commercial launches have 
decreased significantly, mainly because they have government 
indemnification.
    What recommendations do you have for improving the 
competitiveness of the commercial space travel with respect to 
indemnification? Do you think this is a policy that we should 
continue?
    Mr. Nield. Yes. As was previously mentioned by Mr. Stevens 
and others, we believe that the action by the House to extend 
the current indemnification process is very appropriate. We 
certainly encourage the Senate to act on that. However, in the 
long term, we think there is merit to looking at a more 
extended period, to allow companies to do long-range strategic 
planning, investment and so forth, knowing with some certainty 
what indemnification regime they would be subject to. So that 
would be an excellent example of what the Government could do 
in order to provide some certainty and support for the 
industry.
    Mr. Boccieri. At the space launch sites--I guess there are 
several of them between NASA and the military, Cape Canaveral, 
et cetera--how do they work with the commercial launch, the 
vehicles, in the sense to promote the most expeditious 
trajectory, one that is not going to damage satellites or hurt 
any of our military/commercial capabilities to communications?
    Mr. Nield. We work very well together. Again, I mentioned 
the partnership with the Air Force. We have an office at 
Patrick Air Force Base to have a person on the scene and 
interact on a daily basis with the range there so that we 
understand the issues. I mentioned the common safety standards.
    We also have an excellent relationship with NASA. And that 
will become even more important as the Shuttle is retired and 
various commercial rockets are considered by NASA for their use 
as well. So I think, in general, the Government agencies 
involved work very well together and we are all looking to 
industry to try and understand how they can bring their 
capabilities to the table to support our national interests.
    Mr. Boccieri. Do you find that our international 
competitors--I know China is very aggressive in trying to put 
an astronaut on the moon. Do you find that there is a lot of 
international competitiveness in relaying--in addition to that 
question, do you think that we can do a better job of promoting 
more engineers into the field?
    Mr. Nield. Certainly workforce is a key issue for the 
entire industry. We need to pay attention to that and that is 
something that you cannot fix immediately; it is a long-term 
process to have people studying the math and science and 
engineering early in their educational process.
    In terms of the international relationships, it is 
interesting because there certainly is a competitive 
environment in terms of the prices that are being offered by 
other nations to launch rockets into space. Many of those 
countries subsidize their programs and they make it very 
difficult for our companies to compete.
    But in terms of the suborbital space tourism industry, I 
think it is generally acknowledged that the United States is in 
the lead in that particular area for a number of reasons. We 
tend to have a much more innovative population and corporate 
culture that is trying these new and different ideas with 
advanced technologies, so we have seen more developments, more 
planning, more testing in this Country than anywhere else.
    I have also been told, as I participate in international 
conferences, that our regulatory regime that Congress has put 
in place in this Country is something that is envied, frankly, 
to enable us to concentrate on protecting public safety while 
allowing the acceptance of risk during some of these more 
dangerous activities. That is something that is not universally 
shared, and the companies in other countries, frankly, would 
love to have a level playing field, as they describe it, in 
terms of how they treat those things.
    Mr. Boccieri. One last question to the panel. Right now 
this seems as if it is a millionaire's or a billionaire's 
endeavor. Do you anticipate that the average Bob and Betty 
Buckeye from Ohio might someday climb in a rocket ship? And how 
far away do you think that is?
    Mr. Greason. Anybody who buys a cell phone or a computer or 
a flat screen TV to put on their wall ought to be very thankful 
that there are all these high net worth early adopters who paid 
to bring the volume up and the technology to the point where 
everybody else can use it. I don't think spaceflight is ever 
going to be, even suborbital spaceflight, is ever going to be 
quite as cheap as air travel is today.
    But I can easily see it getting down to the point where, at 
some point in the future, and, no, I am not going to predict 
how soon that is because it is too many steps ahead. But I can 
see it getting down to the price of a cruise; and that is not 
something that is reserved for billionaires.
    Mr. Boccieri. Well, I haven't been on a cruise yet, sir.
    Mr. Greason. I haven't either, but I understand that they 
do quite well.
    Mr. Boccieri. Thank you.
    Mr. Costello. The Chair thanks the gentleman.
    Any other Members have additional questions?
    [No response.]
    Mr. Costello. If not, let me thank the witnesses for 
testifying here today. This has been a very productive and 
useful hearing. Our number one priority in this Subcommittee is 
safety and, as space transportation and tourism increases in 
the future, we want to make certain that the FAA has the 
resources to go forward to ensure that space transportation and 
tourism in fact goes forward and is as safe as it possibly can 
be.
    So we will be monitoring the activities in space 
transportation, working closely with the FAA and, when 
necessary, we will be holding additional hearings and providing 
aggressive oversight. So we thank you for your testimony today 
and the Subcommittee stands adjourned.
    [Whereupon, at 11:10 a.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T3802.008
    
    [GRAPHIC] [TIFF OMITTED] T3802.009
    
    [GRAPHIC] [TIFF OMITTED] T3802.010
    
    [GRAPHIC] [TIFF OMITTED] T3802.011
    
    [GRAPHIC] [TIFF OMITTED] T3802.012
    
    [GRAPHIC] [TIFF OMITTED] T3802.013
    
    [GRAPHIC] [TIFF OMITTED] T3802.014
    
    [GRAPHIC] [TIFF OMITTED] T3802.015
    
    [GRAPHIC] [TIFF OMITTED] T3802.016
    
    [GRAPHIC] [TIFF OMITTED] T3802.017
    
    [GRAPHIC] [TIFF OMITTED] T3802.018
    
    [GRAPHIC] [TIFF OMITTED] T3802.019
    
    [GRAPHIC] [TIFF OMITTED] T3802.020
    
    [GRAPHIC] [TIFF OMITTED] T3802.021
    
    [GRAPHIC] [TIFF OMITTED] T3802.022
    
    [GRAPHIC] [TIFF OMITTED] T3802.023
    
    [GRAPHIC] [TIFF OMITTED] T3802.024
    
    [GRAPHIC] [TIFF OMITTED] T3802.025
    
    [GRAPHIC] [TIFF OMITTED] T3802.026
    
    [GRAPHIC] [TIFF OMITTED] T3802.027
    
    [GRAPHIC] [TIFF OMITTED] T3802.028
    
    [GRAPHIC] [TIFF OMITTED] T3802.029
    
    [GRAPHIC] [TIFF OMITTED] T3802.030
    
    [GRAPHIC] [TIFF OMITTED] T3802.031
    
    [GRAPHIC] [TIFF OMITTED] T3802.032
    
    [GRAPHIC] [TIFF OMITTED] T3802.033
    
    [GRAPHIC] [TIFF OMITTED] T3802.034
    
    [GRAPHIC] [TIFF OMITTED] T3802.035
    
    [GRAPHIC] [TIFF OMITTED] T3802.036
    
    [GRAPHIC] [TIFF OMITTED] T3802.037
    
    [GRAPHIC] [TIFF OMITTED] T3802.038
    
    [GRAPHIC] [TIFF OMITTED] T3802.039
    
    [GRAPHIC] [TIFF OMITTED] T3802.040
    
    [GRAPHIC] [TIFF OMITTED] T3802.041
    
    [GRAPHIC] [TIFF OMITTED] T3802.042
    
    [GRAPHIC] [TIFF OMITTED] T3802.043
    
    [GRAPHIC] [TIFF OMITTED] T3802.044
    
    [GRAPHIC] [TIFF OMITTED] T3802.045
    
    [GRAPHIC] [TIFF OMITTED] T3802.046
    
    [GRAPHIC] [TIFF OMITTED] T3802.047
    
    [GRAPHIC] [TIFF OMITTED] T3802.048
    
    [GRAPHIC] [TIFF OMITTED] T3802.049
    
    [GRAPHIC] [TIFF OMITTED] T3802.050
    
    [GRAPHIC] [TIFF OMITTED] T3802.051
    
    [GRAPHIC] [TIFF OMITTED] T3802.052
    
    [GRAPHIC] [TIFF OMITTED] T3802.053
    
    [GRAPHIC] [TIFF OMITTED] T3802.054
    
    [GRAPHIC] [TIFF OMITTED] T3802.055
    
    [GRAPHIC] [TIFF OMITTED] T3802.056
    
    [GRAPHIC] [TIFF OMITTED] T3802.057
    
    [GRAPHIC] [TIFF OMITTED] T3802.058
    
    [GRAPHIC] [TIFF OMITTED] T3802.059
    
    [GRAPHIC] [TIFF OMITTED] T3802.060
    
    [GRAPHIC] [TIFF OMITTED] T3802.061
    
    [GRAPHIC] [TIFF OMITTED] T3802.062
    
    [GRAPHIC] [TIFF OMITTED] T3802.063
    
    [GRAPHIC] [TIFF OMITTED] T3802.064
    
    [GRAPHIC] [TIFF OMITTED] T3802.065
    
    [GRAPHIC] [TIFF OMITTED] T3802.066
    
    [GRAPHIC] [TIFF OMITTED] T3802.067
    
    [GRAPHIC] [TIFF OMITTED] T3802.068
    
    [GRAPHIC] [TIFF OMITTED] T3802.069
    
    [GRAPHIC] [TIFF OMITTED] T3802.070
    
    [GRAPHIC] [TIFF OMITTED] T3802.071
    
    [GRAPHIC] [TIFF OMITTED] T3802.072
    
    [GRAPHIC] [TIFF OMITTED] T3802.073
    
    [GRAPHIC] [TIFF OMITTED] T3802.074
    
    [GRAPHIC] [TIFF OMITTED] T3802.075
    
    [GRAPHIC] [TIFF OMITTED] T3802.076
    
    [GRAPHIC] [TIFF OMITTED] T3802.077
    
    [GRAPHIC] [TIFF OMITTED] T3802.078
    
    [GRAPHIC] [TIFF OMITTED] T3802.079
    
    [GRAPHIC] [TIFF OMITTED] T3802.080
    
    [GRAPHIC] [TIFF OMITTED] T3802.081
    
    [GRAPHIC] [TIFF OMITTED] T3802.082
    
    [GRAPHIC] [TIFF OMITTED] T3802.083
    
    [GRAPHIC] [TIFF OMITTED] T3802.084
    
    [GRAPHIC] [TIFF OMITTED] T3802.085
    
    [GRAPHIC] [TIFF OMITTED] T3802.086
    
    [GRAPHIC] [TIFF OMITTED] T3802.087
    
    [GRAPHIC] [TIFF OMITTED] T3802.088
    
    [GRAPHIC] [TIFF OMITTED] T3802.089
    
    [GRAPHIC] [TIFF OMITTED] T3802.090
    
    [GRAPHIC] [TIFF OMITTED] T3802.091
    
                                    

</pre></body></html>
